In the SUPREME COURT OF THE UNITED STATES
JOHN L. CORRIGAN, SR.
Petitioner,
v.
GRANT COUNTY, et al.;
Respondents.

CERTIFICATE OF SERVICE
I certify that on the 28th day of September 2020,1 caused a true and correct copy of the Petitioner’s
Petition for Writ of Certiorari to be served electronically for Respondents at the following email
addresses:
Counsel for Grant County Respondents:
James Edym Baker
Moberg Rathbone Kearns
P.O. Box 130
Ephrata, WA 98823-0130
email: jbaker@mrklawgroup.com
Counsel for WSP Officer Kron:
Frieda K. Zimmerman
Office of Attorney General
1116 West Riverside Avenue, Suite 100
Spokane, WA 99201-1112
email: frieda.zimmerman@rl.doe.gov
email: friedaz@atg.wa.gov

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 28, 2020.

:0RN L. CORRIGAN^-gR. /
T NE Blomlie Rd / Box 1846
Belfair, WA 98528
Pro Se

RECEIVED
OCT - 5 2020
§UPR#MEFQoniff^K

